Department of Law
Kristin M. Bronson, Denver City Attorney
Litigation Section
201 W Colfax Ave, Dept 1108
Denver, CO 80202-5332
p: 720.913.3100
f: 720.913.3155
www.denvergov.org/city_attorney

September 27, 2021
VIA ECF AND FEDERAL EXPRESS
Scott S. Harris, Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
sharris@supremecourt.gov

RE:

Levi Frasier v. Christopher Evans, et al, No. 21-57
Second Motion to Extend Time to File Response to Petition for Writ of Certiorari

Dear Mr. Harris:
Please substitute me as counsel of record for Respondents in the above-referenced matter.
I write to request an extension of an additional 7 days to file an opposition to the petition for writ
of certiorari in the above-referenced case pursuant to Supreme Court Rule 30(4). The petition was
docketed on July 15, 2021, which would ordinarily have required a response on August 16, 2021.
A first request for an extension, until September 30, 2021, was granted on August 9, 2021. We
now request until October 7, 2021 to respond.
email.

Counsel of record for the Petitioner consented to this extension until October 7, 2021 by

Good cause exists for the requested second extension. Since the first request was made,
seven amici have filed briefs in support of the petition. Additionally, Covid-19 has continued to
complicate matters in our office, with an individual witness who spent the day in the office
preparing for trial testing positive for Covid-19, thereby disrupting the work schedules of the team
members working in the office because of the need to follow the appropriate protocols.
Respondents respectfully request that they be granted an additional 7 days, up to and
including October 7, 2021, in which to file their brief in opposition to the Petition for Writ of
Certiorari.
Respectfully submitted,
/s/Kristin M. Bronson
Kristin M. Bronson, City Attorney
Denver City Attorney’s Office

Counsel of Record for Christopher L. Evans, Charles
C. Jones, John H. Bauer, Russell Bothwell, and John
Robledo

cc: Jefferey L. Fischer (counsel for appellant) jlfischer@law.standford.edu
Jeffrey L. Fisher

Counsel of Record

STANFORD LAW SCHOOL
SUPREME COURT
LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305

2

